OIG Audit Report GR-80-09-001

Office of Justice Programs, Bureau of Justice Assistance Grants and Office on Violence Against Women Grants to Encourage Arrest Policies and Enforcement of Protective Orders Awarded to the Tulsa County Sheriffs Office, Tulsa, Oklahoma
Audit Report GR-80-09-001
October 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, completed an audit of two Edward Byrne Memorial - Justice Assistance Grants (JAG Program) awarded by the Bureau of Justice Assistance (BJA) and a Grant to Encourage Arrest Policies and Enforcement of Protective Orders (OVW Arrest Program) awarded by the Office on Violence Against Women (OVW) to the Tulsa County Sheriff’s Office (TCSO), Tulsa, Oklahoma. The two awards for the JAG Program totaled $1,070,546, and the award for the OVW Arrest Program totaled $400,000.
The purpose of the JAG Program was to provide funding for state and local initiatives, technical assistance, training, personnel, equipment, supplies, contractual support, and information systems for criminal justice in any one of the following purpose areas:

Law enforcement programs
Prosecution and court programs
Prevention and education programs
Corrections and community corrections programs
Drug treatment centers
Planning, evaluation, and technology improvements programs

Further, any law enforcement or justice initiative previously eligible for funding under the Edward Byrne Memorial or Local Law Enforcement Block Grant is eligible for JAG Program funding.
 The 2005 JAG award funds were split between TCSO and the Tulsa Police Department.1 Specifically, TCSO’s 2005 JAG award was issued to fund the salaries of one deputy and one crime scene technician (non‑sworn officer) to work in the Criminal Investigations Unit processing crime scenes. In addition, grant funding was used to purchase supplies and equipment needed to effectively operate the crime scene program and to train personnel working in the Criminal Investigations Unit.
 The 2006 JAG award funds were split between TCSO and the Tulsa Police Department.2TCSO was to use its portion of the award to continue funding the salaries of the deputy and the crime scene technician working in the Criminal Investigations Unit. The Tulsa Police Department was to use its portion of the award to fund the salary of an officer to investigate commercial and industrial vendors in an effort to slow the sale of chemicals purchased for the use in clandestine methamphetamine production.
The OVW Arrest Program recognizes that domestic violence is a crime that requires the criminal justice system to hold offenders accountable for their actions through investigation, arrest, and prosecution of violent offenders and through close judicial scrutiny and management of offender behavior. The primary purpose of the OVW Arrest Program is to encourage communities to adopt a coordinated community response in the treatment of domestic violence as a serious violation of criminal law. This program challenges the entire community to listen, communicate, identify problems, and share ideas that will result in new responses to ensure victim safety and offender accountability. The OVW Arrest Program challenges victim advocates, police officers, pre-trial service personnel, prosecutors, judges and other court personnel, probation and parole officers, and faith- and community-based leaders to work together to craft solutions to overcome the problem of domestic violence. All entities must collaborate to ensure that victim safety is a paramount consideration in developing their strategies to address domestic violence.
 TCSO’s 2005 OVW award was used in collaboration with the non‑governmental victim services provider, Domestic Violence Intervention Services, the Tulsa Police Department, and the county District Attorney’s Office to implement a project to provide targeted resources for domestic violence victims. Targeted resources are defined as improvement in the enforcement of protection orders; expedited arrests of domestic violence perpetrators; increased domestic violence victim support; and coordination among law enforcement agencies and the non-governmental victim services provider (Domestic Violence Intervention Services). 
The purpose of this audit was to determine whether reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant and to determine program performance and accomplishments. The objective of our audit was to review performance in the following areas: (1) internal control environment; (2) budget management and control; (3) drawdowns; (4) grant expenditures, including transaction testing, headcount and payroll, and accountable property; (5) program income; (6) financial status and progress reports; (7) program performance and accomplishments; and (8) monitoring of subgrantees. As shown in the following table, the TCSO was awarded $1,470,546 from two Department of Justice programs. We determined that matching costs, indirect costs, and monitoring of contractors were not applicable to these programs. 
 JAG PROGRAM AND OVW ARREST PROGRAM AWARDS 
  BY OVW AND BJA TO THE TCSO 


 AWARD NUMBER 
 AWARD DATE 
 PROJECT PERIOD START DATE 
 AWARD END DATE 
 AWARD AMOUNT 
 TOTAL AWARDED 


 2005-DJ-BX-0697(2005 JAG Program) 
 8/25/2005 
 10/1/2004 
 9/30/2008 
 $676,303 
 


 2006-DJ-BX-0562 (2006 JAG Program) 
 5/4/2006 
 10/1/2005 
 9/30/2009 
 394,243 
 


AWARDED BY BJA 
 $1,070,546 


 2005-WE-AX-0056 (2005 OVW Arrest Program) 
 8/30/2005 
 7/1/2005 
 9/30/2007 
 400,000 
 


 AWARDED BY OVW 
 400,000 


 TOTAL AWARDED
 $1,470,546 


Source: Office of Justice Programs
We examined the TCSO’s accounting records, financial and progress reports, and operating policies and procedures and found the following. 

After the OVW grant award period expired, $15,708 remained un-obligated. These funds should be de‑obligated and put to better use. 
TCSO improperly spent $1,685 from the 2005 JAG Program for consumable items and equipment that did not have budget approval from BJA.
Financial Status Reports for the 2005 and 2006 JAG Program were not accurate because they did not disclose program income of $50,695 earned by TCSO and the Tulsa Police Department. In addition, TCSO reported amounts transferred to the Tulsa Police Department, but not actual expenditures of the Tulsa Police Department for the two JAG Programs.
Only one of the required five Progress Reports was submitted by TCSO, and we determined that the submitted Progress Report was not accurate. In our judgment, TCSO could have submitted additional Progress Reports describing the funding of the deputy and crime scene technician assigned to crime scene investigations and the officer investigating clandestine methamphetamine production. 
TCSO informed us that they did not have an established, well‑defined baseline to measure grant performance and accomplishments for the JAG or OVW Arrest Programs. We also inquired if TCSO had developed any performance measures to evaluate the JAG Program grant awards or the OVW Arrest Program grant awards, and they had not. TCSO was required by the special conditions stipulated in both JAG awards to comply with the reporting, data collection, and evaluation requirements. The special conditions of the OVW award stipulated compliance with the Government Performance and Results Act.3
TCSO could not provide any substantiated evidence that they had an effective grant monitoring program for the OVW grant award or the JAG grant award subgrantees.

As a result of these issues, we are questioning $68,088 in dollar‑related findings. Of the $68,088, we identified $1,685 as unauthorized expenditures that should be refunded by TCSO and $66,403 as funds to better use by the granting agencies.


 

Footnotes

The 2005 JAG award was split 82 percent/18 percent, or $554,568 to the Tulsa Police Department and $121,735 to TCSO.
The 2006 JAG award was split 82 percent/18 percent, or $323,625 to the Tulsa Police Department and $70,618 to TCSO.
Specifically, Special Condition Number 13 of the 2005 JAG Program, Special Condition Number 12 of the 2006 JAG Program, and Special Condition Number 9 of the 2005 OVW Program.





 




Return to OIG Home Page